Petition for writ of certiorari of Christopher Rondeau

-5443
IN THE

SUPREME COURT OF THE UNITED STATES

CHRISTOPHER RONDEAU - Petifid|lr|L#
v.

STATE OF INDIANA - Respondent;

filed"
JUL 3 0 2020
^UPagMECOU^^

PETITION FOR WRIT OF CERTIORARI

Attorney for Petitioner:
Christopher Rondeau
DOC# 198058
Pendleton Correctional Facility
4490 West Reformatory Road
Pendleton, IN 46064-9001
Petitioner / pro se
1

Petition for writ of certiorari of Christopher Rondeau
QUESTIONS PRESENTED
1. Were the Petitioner’s 5th, 6th, and 14th Amendment rights violated when the State of
Indiana held a trial without subject matter jurisdiction in which the Petitioner was
convicted of murdering in April of 2009, an alleged victim that was a non-resident
foreign national, that had been declared to be officially and legally dead in his own
country since 2008, and was never proven to even have been in the United States in
April of 2009?
2. Were the Petitioner’s 5th and 14th Amendment rights violated when Indiana Courts
denied the Petitioner the right to challenge, verity, and confirm whether or not
subject matter jurisdiction existed on the records of the Petitioner’s case?
3. Can the State of Indiana name a deceased citizen from the Federal Republic of
Germany, that the Federal Republic of Germany declared to be officially and legally
dead in 2008, as an alleged murder victim in April of 2009?
4. Can the State of Indiana name a deceased citizen from the Federal Republic of
Germany that did not have a valid passport, visa, or authorization from the United
States to be in the United States in 2009, as an alleged Indiana murder victim in April
of2009?
5. Can the State of Indiana circumvent subject matter jurisdiction requirements to hear
this case by changing the alleged victim’s citizenship status label from “Adolf
Stegbauer deceased citizen of the Federal Republic of Germany” to “Adolf Stegbauer
of Indianapolis”?
6. Is the burden of proof on the State of Indiana to establish the nonexistence of the fact
that the alleged murder victim, “Adolf Stegbauer”, was already officially and legally
2

Petition for writ of certiorari of Christopher Rondeau
dead at the time that the alleged murder took place in April of 2009, and can the
Petitioner be charged under Indiana statute or common law (or Federal law) with a
crime when there is no proof offered by the state of Indiana on the record that
showed that “Adolf Stegbauer” was alive after 2008 to contradict the findings of
Adolf Stegbauer’s government, the Federal Republic of Germany?
7. Is the burden of proof on the State of Indiana to establish the fact that the alleged
murder victim was in fact in the United States at the time that the alleged murder
took place in April of 2009 and can the Petitioner be charged under Indiana statute or
common law (or Federal law) with a crime, when the state of Indiana did not show
proof on the record that the alleged victim, who was a deceased foreign national, was
even in the United States at the time that the alleged Indiana murder took place in
April of 2009?
8. Do Indiana courts have any authority over the “legally dead” status of citizens of
other sovereign nations that are not residents of the United States?
9. Can parties agree to have subject matter jurisdiction via stipulations, or does subject
matter jurisdiction have to be proven to exist in order to actually have subject matter
jurisdiction?
10.Were the Petitioner’s 5th and 14th U.S. Constitutional Amendment rights violated
when the State of Indiana hid the fact from the jury that the alleged Indiana murder
victim would in fact have been a “criminal alien” that was violating Federal Law, if
he was in fact alive and in Indiana in April of 2009?

3

Petition for writ of certiorari of Christopher Rondeau

LIST OF PARTIES
[XI All parties appear in the caption of the case on the cover page.
I I All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

4

Petition for writ of certiorari of Christopher Rondeau

TABLE OF CONTENTS
Opinions Below.

7

Jurisdiction

8

Constitutional and Statutory Provisions Involved,

9

Statement of the Case

10

Reasons for Granting the Writ,

14

Conclusion

20
INDEX TO APPENDICES

Appendix A - Decision of Indiana Court of Appeals

Appendix B - Decision of the State trial court

Appendix C - Decision of the Indiana Supreme Court denying review

Appendix D - Order of the Indiana Court of Appeals denying rehearing
Appendix E - Order of the Indiana Court of Appeals denying permission to file a
successive Petition for Post-Conviction Relief

5

Petition for writ of certiorari of Christopher Rondeau
TABLE OF AUTHORITIES CITED
PAGE NUMBER:

CASES:
Main v. Thiboutot. 100 S.Ct. 2502 (19801

12, 13

Stuck v. Medical Examiners. 94 Ca2d 751,211 P. 2s 389

12, 13

STATUTES & RULES:

PAGE NUMBER:

OTHER:

PAGE NUMBER:
11, 13

Indiana code § 35-34-l-4(b)

6

Petition for writ of certiorari of Christopher Rondeau
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully prays that this Honorable Court issue a writ of certiorari to
review the judgment below.
OPINIONS BELOW
O For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
and isI I reported at_________ ,_________________ ____________

to the petition

.; or,

I I has been designated for publication but is not yet reporter; or,
I I is unpublished.
The opinion of the United States district court appears at Appendix
and is-

to the petition

I I reported at________________________________________

or,

I I has been designated for publication but is not yet reporter; or,
I I is unpublished.

[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix A to the
petition and isI I reported at________________________________________

or,

I I has been designated for publication but is not yet reporter; or,
[Xl is unpublished.
The opinion of the Indiana Court of Appeals appears at Appendix A to the petition and isI I reported at________________________________________
I I has been designated for publication but is not yet reporter; or,
1X1 is unpublished.

7

or,

Petition for writ of certiorari of Christopher Rondeau

JURISDICTION
I I For cases from federal courts:
The date on which the United States court of appeals decided my case was
A copy of that decision appears at Appendix___ .
I I No petition for rehearing was timely filed in my case.
I I A timely petition for rehearing was denied by the United States court of appeals on
20__, and a copy of the order denying
the following date:_________
rehearing appears at Appendix
I I An extension of time to file the petition for a writ of certiorari was granted to and
, 20__, in Application
including
20__, on
No.__, and a copy of the order granting said extension appears at Appendix___ .
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
1X1 For cases from state courts:
The date on which the highest state court decided my case was December
A copy of that decision appears at Appendix (\ .

\<\ . 20M

1 I No petition for rehearing was timely filed in my case.
1X1 A timely petition for rehearing was denied on the following date: February 5. 2020.
and a copy of the order denying rehearing appears at Appendix D.
1 I An extension of time to file the petition for a writ of certiorari was granted to and
, 2020. in Application
2020. on
including
No.__, and a copy of the order granting said extension appears at Appendix___ .
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

8

Petition for writ of certiorari of Christopher Rondeau
CONSTITUTIONAL PROVISIONS AND STATUTES

5th

AMENDMENT RIGHTS; Criminal actions-Provisions conceming-Due process of law
and just compensation clauses: No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grand Jury,
except in cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty, or
property, WITHOUT DUE PROCESS OF LAW; nor shall private property be taken
for public use, without just compensation.

6th AMENDMENT RIGHTS; Rights of the accused: In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the Assistance of Counsel for
his defense.

14th AMENDMENT RIGHTS; Equal protection and State due process: All persons bom or
naturalized in the United States, and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, WITHOUT
DUE PROCESS OF LAW; nor deny to any person within its jurisdiction the equal
The Congress shall have the power to enforce, by
protection of the laws.
appropriate legislation, the provisions of this article.

9

Petition for writ of certiorari of Christopher Rondeau

STATEMENT OF THE CASE

In April 2009, the Petitioner, who is an American citizen and a veteran, whom also has
never had a felony on his criminal record or any history of violence prior to this case (or since),
was accused by the State of Indiana of murdering “Adolf Stegbauer of Indianapolis”.
The real “Adolf Stegbauer” was the Petitioner’s grandfather’s brother who was a citizen of
the Federal Republic of Germany that was declared by the Federal Republic of Germany in 2008
to be officially and legally dead. That Adolf Stegbauer was never at any time a citizen of the
United States or a legal resident alien of Indianapolis or anywhere else in the United States, nor
was he authorized by the United States to be in the United States in April of 2009 for any reason.
The Federal Republic of Germany declared that Adolf Stegbauer was officially and legally dead
in 2008, then stopped his monthly government direct deposit checks to his bank account and
froze those bank accounts and then notified the Petitioner’s family (also in 2008).
“Adolf Stegbauer of Indianapolis” is a fictional person that did not exist. The State of
Indiana concocted that label in order to circumvent subject matter jurisdiction requirements. The
State of Indiana made no claims in any proceedings prior to, or during, the Petitioner’s trial that
Adolf Stegbauer was in the United States illegally at any time, nor did the State of Indiana
establish in any proceedings prior to, or during, the Petitioner’s trial the nonexistence of the fact
that Adolf Stegbauer was already “officially and legally dead” according to his own government,
the Federal Republic of Germany. Indiana Statute calls for a credible victim to be named in order
to invoke the statute. Merely changing someone’s name and or title, or labeling someone as
something does not satisfy the statute. The victim’s identity must be proven in order to invoke
the statute.

10

Petition for writ of certiorari of Christopher Rondeau
In May 2010, the Petitioner was taken to trial in Marion County, Indianapolis, where
the State of Indiana kept referring to the alleged victim as “Adolf Stegbauer of Indianapolis”
without ever proving that such a person even existed in the first place and without disproving the
findings of the Federal Republic of Germany about the real Adolf Stegbauer who had been
declared to be dead by the Federal republic of Germany in 2008.
The parties agreed to have subject matter jurisdiction at the trial via stipulations; that a
photograph of a corpse taken in April of 2009 in Indianapolis was the same person as a
photograph of Adolf Stegbauer, citizen of Germany, taken sometime prior to 2008. No DNA
evidence or fingerprints were compared to any on file with the German government, and no
identification of any kind, like a passport, visa, I.D, or drivers license that positively identified
the victim as “Adolf Stegbauer” was offered as evidence by the State at the trial. No articles of
mail showing a mailing address in the U.S. for Adolf Stegbauer was used as evidence at the trial.
No paperwork of any kind was offered as evidence to show residency in the United States for
anyone named “Adolf Stegbauer”. And, finally, no data about a foreign national named Adolf
Stegbauer from the office of Homeland Security was used as evidence at the trial.
There were no claims that “Adolf Stegbauer of Indianapolis” was an illegal alien made at
any time, and in fact the State of Indiana went out of it’s way to avoid questions on Adolf
Stegbauers “citizenship status” and personal background by submitting a motion in limine that
asked the court to forbid those questions at the trial which the court granted.
On July 6, 2017, the Petitioner attempted to bring the issue about the alleged victim having
been declared legally dead prior to the alleged murder to the trial court via a Pro se Motion to
dismiss for lack of subject matter jurisdiction, under Indiana code § 3 5-34-1-4(b), but the trial
court denied the Petitioner’s motion and then never notified the petitioner of the order denying

11

Petition for writ of certiorari of Christopher Rondeau
his motion. Indiana courts, from that point on, refused to accept any challenges of any kind
involving subject matter jurisdiction from the petitioner up to present date. Subject matter
jurisdiction has never been decided or proven to exist “Once challenged, jurisdiction cannot be
assumed it must be decided.” Main v. Thiboutot. 100 S.Ct. 2502 (1980)., and Stuck v. Medical
Examiners, 94 Ca2d 751.211 P. 2s 389. “once challengedjurisdiction cannot be assumed it must
be proven to exist.’’'’
Additionally, due to a clerical error by the trial court, the Petitioner was having problems
receiving “file stamped return copies” of his motions and copies of orders and judgments from
the trial court and that had a huge impact on the course of events. The Petitioner is not
responsible for the trial courts ongoing clerical errors, where all notifications between the
beginning of 2017 to January 9, 2019, were “Automated E-notifications” that were sent to
attorney Deidre R. Eltzroth who had withdrew from the Petitioner’s case on December 12, 2012.
The Petitioner, who was Pro se since January 2013, received no notifications from the trial court
through the U.S. mail or otherwise, until he received a copy of the CCS from the court on
December 18, 2018.
The Petitioner thought that the trial court was ignoring his filings and inquiries into the
issue of subject matter jurisdiction the whole time because he never received any notifications at
all. The Petitioner made an effort to get “file stamped return copies” and copies of orders and
judgments from the trial court over the course of the proceedings since 2017 (but without any
luck until December 2018 when he finally received a copy of the CCS).
The Petitioner and the trial court finally resolved the trial court’s clerical error problems
on January 9, 2019, and the Petitioner now properly receives notifications from the trial court via
U.S. mail.

12

Petition for writ of certiorari of Christopher Rondeau
During the time that the Petitioner believed that the trial court was ignoring him and his
motions and inquiries about subject matter jurisdiction, he filed a State petition for writ of habeas
corpus on the issue of subject matter jurisdiction with the Madison County Circuit Court, but on
September 5, 2017 the Madison County Court issued an order transferring this case back to the
trial court in Marion County. The trial court did not notify the Petitioner at all of the outcome of
that transfer due to the clerical errors during that time period with e-notifications mentioned
above.
Also during that time period, with a mounting frustration in the trial courts lack of
responses, the Petitioner submitted a petition for permission to file a successive Petition for PostConviction relief with the Indiana Court of Appeals on the issue of “fraud upon the court
resulting in a lack of subject matter jurisdiction”, which the Indiana court of appeals claimed had
no merit.
Finally, as a last ditch effort to get this issue into the courts, the Petitioner submitted
another motion to dismiss, under Indiana code § 35-34-1-4(b), on November 7, 2018, which the
trial court denied, and the Petitioner appealed. The Petitioner’s appeal was denied by the Indiana
Court of Appeals on December 19, 2019. The Petitioner submitted a motion for a rehearing on
January 9, 2020. The Indiana Court of Appeals denied the motion for a rehearing on February 5,
2020. The Petitioner filed a motion to transfer to the Indiana Supreme Court on February 13,
2020. The Indiana Supreme Court denied transfer on April 7, 2020..
The Petitioner has challenged the Indiana court’s subject matter jurisdiction and the
court’s are circumventing that challenge. “Once challenged, jurisdiction cannot be assumed it
must be decided.’’'’ Main v. Thiboutot, 100 S.Ct. 2502 (1980). and Stuck v. Medical Examiners. 94

13

Petition for writ of certiorari of Christopher Rondeau
Ca2d 751.211 P. 2s 389, “once challenged jurisdiction cannot be assumed it must be proven to
exist."

REASONS FOR GRANTING THE WRIT
The State of Indiana has never met its burden of establishing the nonexistence of the fact
that the real Adolf Stegbauer from Germany was already legally dead at the time that the alleged
murder took place in April of 2009. In addition, the State of Indiana has never proven that the
real Adolf Stegbauer from Germany was even in the United States at the time of the alleged
murder in April of 2009. The State of Indiana has also never established how a German citizen
who’s passport was expired for several years prior to 2009, and who did not have a valid visa
since 2003, could be in the United States in April of 2009. The Petitioner has essentially been
imprisoned for allegedly murdering someone that was already officially and legally dead long
before the alleged murder ever took place, and who was never proven to be in the United States,
if he was alive at the time the alleged murder took place, in April of 2009. As it Stands, the
Petitioner is serving a 55 year sentence for allegedly murdering the concocted fictional non­
person “Adolf Stegbauer of Indianapolis” that had no official mailing address or residence in
Indiana, no valid passport, visa, or I.D. of any kind, no social security or tax records of any kind,
and no records anywhere in any U.S. government database of having ever actually existed.
How can there be subject matter jurisdiction without a properly identified victim? The
Petitioner has repeatedly been denied the right to verify that subject matter jurisdiction exists on
the records of his case by the Indiana courts. This violates the Petitioner’s 5th and 14th U.S.
Constitutional Amendment rights. Subject matter jurisdiction that is invoked because of the State

14

Petition for writ of certiorari of Christopher Rondeau
Statutes for murder just doesn’t exist without a properly identified victim. There must be a
credible victim in order to invoke the Indiana Statutes for murder. A person from another country
that was already legally and officially dead cannot be used to invoke the Statute, unless the State
of Indiana disproves that he was already dead and proves that he was in the United States at the
time of the alleged murder, and then properly identifies the alleged victim. And hiding facts from
the jury, like that if Adolf Stegbauer was in fact alive and in the United States in April of 2009,
he would have been a “criminal alien”, also violates the petitioners rights to a fair trial. The Jury
was never aware that if Adolf Stegbauer was in fact alive and in the United States at the time of
the alleged murder, he would have been violating Federal immigration law, or “in the act of
committing a crime”.
The Petitioner’s main questions and his own viewpoints to his questions are presented to the
U.S. Supreme Court below and he believes that these are good reasons for granting the writ;

1. Were the Petitioner’s 5th, 6th, and 14th Amendment rights violated when the State of
Indiana held a trial without subject matter jurisdiction in which the Petitioner was
convicted of murdering in April of 2009. an alleged victim that was a non-resident
foreign national, that had been declared to be officially and legally dead in his own
country since 2008, and was never proven to even have been in the United States in April
of 2009? Yes, the Petitioner’s rights have been violated because the State court did
not actually have subject matter jurisdiction to hear the case. It was never proven
that a credible victim actually existed, or that the alleged victim was even in Indiana
at the time of the alleged murder in April of 2009.

15

Petition for writ of certiorari of Christopher Rondeau
2. Were the Petitioner’s 5th and 14th Amendment rights violated, when Indiana Courts
denied the Petitioner the right to challenge, verify and confirm whether or not subject
matter jurisdiction existed on the records of the Petitioner’s case?

Yes, the Petitioner’s

due process rights have been violated. An inquiry or challenge to subject matter
jurisdiction must be decided and cannot be ignored or denied by the State courts. If
subject matter jurisdiction is in question by either party, courts are obligated to
settle the matter once and for all, even if a trial and sentencing have already taken
place. When courts deny a person the right to seek verification of whether or not
subject matter jurisdiction exists on the records of the case, they deny that person
his constitutional rights under the 5th and 14th amendments to the U.S. Constitution.
Also, in Indiana, under Indiana code § 35-34-l-4(b) a motion to dismiss “for a lack
of subject matter jurisdiction” may be made “at any time”, but Indiana courts use
blocking maneuvers, legal dodging tricks, and rules “dead ends” to avoid having to
decide whether or not that subject matter jurisdiction exists on cases where it is in
question. These tactics used by Indiana Courts violate the Petitioner’s rights.

3. Can the State of Indiana name a deceased citizen from the Federal Republic of Germany.
that the Federal Republic of Germany declared to be officially and legally dead in 2008.
as an alleged murder victim in April of 2009?

Yes, but only if the State first

disproves the findings of the German government, that the alleged victim had been
declared officially and legally dead in 2008.

16

Petition for writ of certiorari of Christopher Rondeau
4. Can the State of Indiana name a deceased citizen from the Federal Republic of Germany,
that did not have a valid passport, visa, or authorization from the United States to be in
the United States in 2009, as an alleged Indiana murder victim in April of 2009?

Yes,

but only if the State first proves that the alleged victim, who was a deceased foreign
national, was in fact alive after 2008 and in the United States in April of 2009.

5. Can the State of Indiana circumvent subject matter jurisdiction requirements to hear this
case by changing the alleged victim’s citizenship status label from “Adolf Stegbauer
deceased citizen of the Federal Republic of Germany” to “Adolf Stegbauer of
Indianapolis”?

No, subject matter jurisdiction must be proven to exist and the

requirements cannot be circumvented by cheating or by tricks such as “citizenship
status label changing”.

6. Is the burden of proof on the State of Indiana to establish the nonexistence of the fact that
the alleged murder victim. “Adolf Stegbauer”. was already officially and legally dead at
the time that the alleged murder took place in April of 2009 and can the Petitioner be
charged under Indiana statute or common law (or Federal law") with a crime when there
was no proof offered by the state of Indiana on the record that showed that “Adolf
Stegbauer” was alive after 2008 to contradict the findings of Adolf Stegbauer’s
government, the Federal Republic of Germany? The burden of proof is on the state of
Indiana to disprove the findings of the German government that the alleged victim
was declared officially and legally dead in 2008, and no, the petitioner cannot be
charged with a crime without a credible, legitimate victim. The petitioner cannot

17

Petition for writ of certiorari of Christopher Rondeau
murder a person in 2009 that was already officially and legally dead since 2008,
unless the state first disproves the findings of the German government about that
government’s citizen being legally and officially dead prior to the alleged murder.

7. Is the burden of proof on the State of Indiana to establish the fact that the alleged murder
victim was in fact in the United States at the time that the alleged murder took place in
April of 2009 and can the Petitioner be charged under Indiana statute or common law (or
Federal law) with a crime, when the state of Indiana did not show proof on the record that
the alleged victim, who was a deceased foreign national, was even in the United States at
the time that the alleged Indiana murder took place in April of 2009?

The burden of

proof is on the state of Indiana to prove that the alleged victim, who was a foreign
national, was in fact in the United States, legally or illegally, at the time of the
alleged murder in April of 2009.

8. Do Indiana courts have any authority over the “legally dead” status of citizens of other
sovereign nations that are not residents of the United States?

The petitioner has no

idea, but would guess “no”.

9. Can parties agree to have subject matter jurisdiction via stipulations, or does subject
matter jurisdiction have to be proven to exist in order to actually have subject matter
jurisdiction? No, it has to be proven to exist, parties agreeing to have subject matter
jurisdiction cannot create subject matter jurisdiction just by simply agreeing to
have it.

18

Petition for writ of certiorari of Christopher Rondeau

10. Were the Petitioner’s 5th and 14th U.S. Constitutional Amendment rights violated when
the State of Indiana hid the fact from the jury that the alleged Indiana murder victim
would in fact have been a “criminal alien” that was violating Federal Law, if he was in
fact alive and in Indiana in April of 2009?

Yes, the Petitioner’s 5th and 14th

Amendment rights have been violated by the State of Indiana, because if the alleged
victim was in fact alive and in the united states in April of 2009, he would have been
a “criminal alien”.

The state of Indiana labeled the alleged victim as “Adolf

Stegbauer of Indianapolis” and was granted a motion in limine that hid the truth
that the alleged victim would have been a criminal alien in the act of violating
Federal law if he was in fact alive and in the United States in April of 2009. This
deliberate omission of a material fact from the trial affected the outcome of the trial.
The case was viewed as a domestic homicide crime by the jury instead of a case of
an illegal foreign national committing an act terrorism against a U.S. citizen.

19

Petition for writ of certiorari of Christopher Rondeau

CONCLUSION
The petition for a writ of certiorari should be granted because the Petitioner is an
American citizen and has the right to full due process, not a partial due process where comers are
cut in order to get subject matter jurisdiction and speed up the likelihood of a conviction, and the
petitioner has the right to verify that subject matter jurisdiction exists on the records of his case,
even after a conviction and post conviction proceedings have already taken place. It should also
be granted because no American citizen any where, should be allowed to be subjected to these
types of tactics, where States, and State courts hide facts about an alleged victim being a criminal
alien violating federal immigration law from the jury in order to circumvent the requirements to
get subject matter jurisdiction. The fact that the alleged victim, had it been proven that he was in
fact alive and in the United States in April of 2009, would also have been a “criminal alien”
violating Federal Law is very relevant to this case and should never have been lied about by the
State of Indiana. A foreign national illegally in the United States that violently attacks an
American citizen is essentially committing a terrorist act. Hiding this from the jury prejudiced
the jury against the Petitioner at his trial as the jury never got to know the full and complete
truth. Whether or not Indiana courts had proper subject matter jurisdiction to hear this case to
begin with remains unanswered even to present date. Petitioner’s inquiries and challenges into
the issue of subject matter jurisdiction continue to go unanswered by the Indiana courts. Indiana
courts are very adept at dodging this issue.

Executed on:

%°\ . 2020,

Respectfully submitted,

Petitioner / pro se
20

i

Petition for writ of certiorari of Christopher Rondeau

